W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-450

Anthony Futia, Jr.

Westchester County Board of Legislators et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Westchester County Board of Legislators
Benjamin Boykin II, Chairman, Westchester County Board of Legislators

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

David H.R. Chen

Date:

10/4/21

Digitally signed by David H.R. Chen
Date: 2021.10.04 15:27:00 -04'00'

(Type or print) Name David H.R. Chen
Mr.

Ms.

Mrs.

Firm

Office of the Westchester County Attorney

Address

148 Martine Ave., Suite 600

City & State

White Plains, NY

Phone

(914) 995-3616

Miss

Zip 10601
Email

dhca@westchestergov.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Anthony Futia, Jr., pro se
34 Custis Ave.
N. White Plains, NY 10603
Futia2@optimum.net

Robert L. Schulz, pro se
2458 Ridge Road
Queensbury, NY 12804
Bob@givemeliberty.org

